No. _____
IN THE

Supreme Court of the United States
UBER TECHNOLOGIES, INC. AND RASIER-CA, LLC,
Petitioners,
v.
JONATHON GREGG,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and that
on this 21st day of September 2021, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Counsel for Respondent:
David R. Lira
dlira@elllaw.com
Engstrom, Lipscomb & Lack
10100 Santa Monica Blvd, 12th Floor
Los Angeles, CA 90067
Tel.: 310-552-3800
Jahan C. Sagafi
jsagafi@outtengolden.com
Outten & Golden LLP
One California St., 12th Floor
San Francisco, CA 94111
Tel.: 415-638-8800

Clerk of Court
Re: Case No. BC719085
CIVIL DIVISION, SUPERIOR COURT OF
CALIFORNIA, COUNTY OF LOS ANGELES
111 N Hill St.,
Los Angeles, CA 90012
(213) 830-0803

Stephen J. Schultz
schultz@sbemp.com
Mark T. Bennett
bennett@sbemp.com
Slovak, Baron, Empey, Murphy &
Pinkney LLP
2240 5th Ave.
San Diego, CA 92101
Tel.: 619-501-4540

Theane D. Evangelis

2

